December 20, 2019
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-402, Howard L. Baldwin & Karen E. Baldwin v.
United States of America
Petitioners’ Reply brief
RULE 33.1(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(h), I certify that the Petitioners’ Reply
Brief in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the text and 10
point for the footnotes, and this brief contains 2,985 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
Executed on December 20, 2019.

Aditya Dynar
Counsel for Petitioners

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

